TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                   Increased Call Volume Associated With
                   Economic Stimulus Payments Reduced
                 Toll-Free Access for the 2008 Filing Season



                                         August 29, 2008

                              Reference Number: 2008-40-168




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                    DEPARTMENT OF THE TREASURY
                                                          WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                   August 29, 2008


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION


 FROM:                           Michael R. Phillips
                                 Deputy Inspector General for Audit

 SUBJECT:                        Final Audit Report – Increased Call Volume Associated With
                                 Economic Stimulus Payments Reduced Toll-Free Access for the
                                 2008 Filing Season (Audit # 200840008)

 This report presents the results of our review to evaluate the customer service toll-free telephone
 access during the 2008 Filing Season.1 This audit was included in our Fiscal Year 2008 Annual
 Audit Plan.

 Impact on the Taxpayer
 During the 2008 Filing Season, the Internal Revenue Service (IRS) did not achieve its toll-free
 telephone assistance performance measurement goals, and access to the toll-free telephone lines
 was lower than that planned because of the high volume of calls regarding the economic stimulus
 payments (also referred to as rebates). Additionally, taxpayers who chose to hear automated
 messages about the economic stimulus payments were not given the option to return to the main
 menu. However, accuracy rates for the Spanish Accounts and Tax Law toll-free telephone lines
 and the percentage of hold and wait times to total contact time improved over those for last year.

 Synopsis
 Each year, millions of taxpayers contact the IRS by calling the various toll-free telephone
 assistance lines to seek help in understanding tax laws and meeting their tax obligations. During
 the 2008 Filing Season, the IRS made available approximately 12,600 assistors to answer the
 toll-free telephone lines at 24 call centers located throughout the United States and Puerto Rico.


 1
     The filing season is the period from January through mid-April when most individual income tax returns are filed.
                     Increased Call Volume Associated With Economic Stimulus
                   Payments Reduced Toll-Free Access for the 2008 Filing Season



The IRS did not achieve its 2008 Filing Season toll-free telephone assistance performance
measurement goals because of the additional call volume associated with the economic stimulus
payments. The IRS had planned to achieve an 81.1 percent Level of Service and a 270-second
Average Speed of Answer.2 Instead, it achieved a 77.4 percent Level of Service and a
347-second Average Speed of Answer, indicating that the ability of taxpayers to access the
toll-free telephone system was lower than that in prior years.
During planning in early Fiscal Year 2008, the IRS expected and planned for 14.1 million calls
to assistors and 17 million calls to the automated lines for the 2008 Filing Season. The
Economic Stimulus Act of 20083 was passed in February 2008 and caused the IRS to receive
16.1 million assistor calls and 19.1 million calls to the automated lines, including 1.3 million
calls to toll-free telephone assistors and 4.2 million
automated calls related to the rebates. Additionally, the        During the 2008 Filing Season,
IRS planned to provide approximately 16.8 million                the IRS averaged 69,000 rebate
toll-free telephone assistor services in the 2008 Filing            calls per day, with a peak
Season but provided 18.7 million assistor services due to          volume  of 208,000 in 1 day.
rebate call volumes.
Due to the anticipated volume of calls about the rebates, the IRS implemented a series of
automated messages to address rebate questions during the 2008 Filing Season. Management
decided not to route callers back to the main menu because the IRS assumed that once the caller
had heard the rebate message, the caller would require no further information or would go to
IRS.gov.
Some performance measures for two of the IRS’ main compliance toll-free telephone lines–the
Automated Collection System Program and the Automated Underreporter Program4–were lower
than those for the 1040 toll-free telephone line. Also, compared to the 2007 Filing Season,
taxpayers calling these telephone lines experienced a longer wait time to speak with an assistor
and spent more time on hold once they were connected to an assistor.
Accuracy rates for the Spanish Accounts and Spanish Tax Law toll-free telephone lines and the
percentage of hold and wait times to total contact time improved over those for last year. In
addition, the Average Speed of Answer was significantly better than that for the comparable




2
  Level of Service is the IRS’ primary measure of providing taxpayers with access to an assistor. Average Speed of
Answer is the average number of seconds taxpayers waited in the queue (on hold) before receiving services.
3
  Pub. L. No. 110-185, 122 Stat. 613.
4
  The Automated Collection System Program is a telephone tax collection system designed to assist Collection
function representatives in the resolution of delinquent taxpayer accounts. The Automated Underreporter Program
provides toll-free telephone assistance for taxpayers who have questions about notices they receive as a result of
underreported income.
                                                                                                                     2
                      Increased Call Volume Associated With Economic Stimulus
                    Payments Reduced Toll-Free Access for the 2008 Filing Season



English applications5 and the 2007 Filing Season Spanish Accounts and Tax Law line results.
Spanish-speaking taxpayers were given the option to switch to the English line even though
service on that line was less than that on the Spanish line.

Recommendations
We recommended that the Commissioner, Wage and Investment Division, ensure that 1) callers
have the option of returning to the main menu when the IRS uses a recorded message to provide
information to taxpayers and 2) the automated messages provided on the Spanish toll-free
telephone lines are monitored so that they will remain valid and promote better customer service
for Spanish-speaking taxpayers.

Response
IRS management agreed with one of our two recommendations and disagreed with the other
recommendation. Although the IRS previously agreed to consider our 2007 Filing Season audit
recommendation to include an option to route back to the main menu when using information
messages, the IRS stated that the timing of the economic stimulus payment legislation made
instituting this recommendation impractical. Instead, consideration was given to the design of
the economic stimulus payment-related announcements and call routing. The decision not to
offer customers the option of returning to the main menu after hearing an economic stimulus
payment announcement was driven by several key factors during the initial deployment. After
the economic stimulus payment legislation was passed and more information became available,
the IRS modified its call-routing strategies to provide expanded service for specific economic
stimulus payment customers. This included enhanced service for the Social Security
Administration/Veterans Affairs community by adding a routing option that enabled these callers
to reach an assistor. This targeted approach to service economic stimulus payment callers was
critical to facilitating voluntary tax compliance and providing access for the greatest number of
callers during the IRS’ busiest time of the year. As was the case with the economic stimulus
payment, future decisions to provide a route-back option to customers when using informational
messages will be made on a case-by-case basis after careful consideration of all factors unique to
the situation.
The IRS plans to continue offering Spanish-speaking callers the option of routing to an
English-speaking assistor, as appropriate. As trends emerge, the IRS plans to assess the value of
offering this option and make configuration changes to provide the best possible customer
experience. Configuration changes will be made within reasonable time periods based on the


5
 The toll-free telephone assistance lines are subdivided into categories called applications, each of which is staffed
with a group of assistors who have received specialized training to assist taxpayers with specific tax issues.
                                                                                                                         3
                  Increased Call Volume Associated With Economic Stimulus
                Payments Reduced Toll-Free Access for the 2008 Filing Season



staff available to make these changes. Management’s complete response to the draft report is
included as Appendix V.

Office of Audit Comment
IRS management disagreed with Recommendation 1 that the IRS ensure that callers have the
option of returning to the main menu when the IRS uses a recorded message to provide
information to taxpayers. We believe that callers should be given the option to return to the main
menu because it provides better customer service, allows callers to feel in control, and is
common practice on customer service telephone lines. Additionally, not providing the option of
returning to the main menu forced taxpayers to call the IRS again–up to 89 percent on some
days. By not adjusting its telephone scripting and providing a route-back option, the IRS
1) forced these callers to redial the toll-free telephone number to obtain additional rebate
information or to ask other questions, and 2) burdened these callers rather than making their
experiences easier.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Michael E. McKenney, Assistant Inspector General for Audit (Wage and Investment Income
Programs), at (202) 622-5916.




                                                                                                4
                        Increased Call Volume Associated With Economic Stimulus
                      Payments Reduced Toll-Free Access for the 2008 Filing Season




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 4
          Access to Toll-Free Telephone Lines Was Lower Than Planned Due to
          the Demand From Calls Related to the Economic Stimulus Payments ........Page 4
          Taxpayers Who Chose to Hear Automated Messages About
          the Economic Stimulus Payments Were Not Given the Option
          to Return to the Main Menu..........................................................................Page 10
                    Recommendation 1:........................................................Page 12

          Service for Spanish Applications Has Improved; However, Some
          Spanish-Speaking Taxpayers Referred to the English Line Had
          Longer Wait Times .......................................................................................Page 13
                    Recommendation 2:........................................................Page 16


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 17
          Appendix II – Major Contributors to This Report ........................................Page 18
          Appendix III – Report Distribution List .......................................................Page 19
          Appendix IV – Joint Operations Center........................................................Page 20
          Appendix V – Management’s Response to the Draft Report .......................Page 22
          Increased Call Volume Associated With Economic Stimulus
        Payments Reduced Toll-Free Access for the 2008 Filing Season




                       Abbreviations

CAS              Customer Account Services
IRS              Internal Revenue Service
SB/SE            Small Business/Self-Employed
W&I              Wage and Investment
                     Increased Call Volume Associated With Economic Stimulus
                   Payments Reduced Toll-Free Access for the 2008 Filing Season




                                                   Background

Each year, millions of taxpayers contact the Internal Revenue Service (IRS) by calling the
various toll-free telephone assistance lines to seek help in understanding tax laws and meeting
their tax obligations. Taxpayers called the IRS toll-free telephone assistance lines approximately
59.7 million times1 during the 2008 Filing Season.2 Of these calls, about 22.2 million were made
to the toll-free telephone number that taxpayers call to ask account or tax law questions
(1-800-829-1040). In addition, about 6.1 million calls were made to the IRS automated TeleTax
system that provides recorded tax law and tax refund information. Figure 1 shows the number of
calls made to the toll-free telephone assistance lines, including about 16.1 million calls answered
by customer service representatives (assistors).3
                Figure 1: Calls Handled by the IRS in the 2008 Filing Season
                                                                                Received
                                    After                                   Automated Service
                              Hours/Transfer Out                               16.5 Million
                                 13.3 Million




                                                    22.3%
                                                               27.5%




                          Hung up or Was
                        Disconnected Before        23.1%
                         Receiving Service
                                                              27.0%          Reached an Assistor
                            13.8 million
                                                                                 16.1 Million




                  Source: IRS Enterprise Telephone Data Warehouse.4



1
  These calls were made to the suite of 19 telephone lines the IRS refers to as “Customer Account Services
Toll-Free” and included calls made to the TeleTax system. Unless otherwise specified, all references made in this
report to the toll-free telephone system performance data are for Customer Account Services Toll-Free telephone
assistance lines from January 1 through April 19, 2008, and comparable dates in prior years.
2
  The filing season is the period from January through mid-April of each year when most individual tax returns are
filed. All references to the 2008 Filing Season made in this report, unless otherwise specified, are for the period
from January 1 through April 19, 2008.
3
  Due to rounding, numbers in the report might not always equal the sum of the totals or 100 percent.
4
  The Enterprise Telephone Data Warehouse is the official source for all data related to toll-free telephone assistance
measures and indicators.
                                                                                                               Page 1
                      Increased Call Volume Associated With Economic Stimulus
                    Payments Reduced Toll-Free Access for the 2008 Filing Season



The toll-free telephone assistance lines are further subdivided into categories called
“applications,” each of which is staffed with a group of assistors who have received specialized
training to assist taxpayers with specific tax issues. Assistors answer taxpayer questions
involving tax law and tax account conditions such as refunds, balance-due billing activity, and
changes to the amount of tax owed. For example, if an individual taxpayer calls to find out
where to mail a tax return, the call would be routed to an assistor who has been trained to handle
IRS procedural issues for individual taxpayers. If a business taxpayer calls to find out the taxes
due on a business account, the call would be routed to an assistor who handles balance-due
questions for business taxpayers. Figure 2 shows the number of calls answered, by product line,
during the 2008 Filing Season.
                  Figure 2: Toll-Free Telephone Service Product Lines and
                  Number of Calls Answered During the 2008 Filing Season5

                                                                       Remaining 11
                                                                       CAS Toll-Free
                                          Rebate Hotline,
                                                                       Product Lines,
              Business Master File         1,056,549, 7%                                      Individual Income Tax
                                                                        945,338, 6%
              Customer Response,                                                               Services, 7,120,201,
                  645,346, 4%                                                                          43%

     Small Business/Self-
     Employed Individual
     Master File Customer
    Response, 932,063, 6%


      Refund Hotline,
       969,542, 6%


      Refund Call Back,
        1,387,232, 9%

                           Wage & Investment
                          Individual Master File
                                                                   Business and
                          Customer Response,
                                                               Specialty Tax Services
                             1,573,992, 10%
                                                                Line, 1,464,026, 9%


     Source: IRS Enterprise Telephone Data Warehouse.

During the 2008 Filing Season, the IRS made available approximately 12,600 assistors to answer
the toll-free telephone lines at 24 call centers located throughout the United States and
Puerto Rico. The Director, Customer Account Services (CAS), Wage and Investment (W&I)
Division, manages tax law and account telephone calls through the Joint Operations Center.

5
 The Business Master File is the IRS database that consists of Federal tax-related transactions and accounts for
businesses. These include employment taxes, income taxes on businesses, and excise taxes. The Individual Master
File is the IRS database that maintains transactions or records of individual tax accounts.
                                                                                                         Page 2
                       Increased Call Volume Associated With Economic Stimulus
                     Payments Reduced Toll-Free Access for the 2008 Filing Season



Appendix IV explains the role of the Joint Operations Center and how telephone calls are routed
to automated services or an assistor.
Over the years, the IRS has encountered issues that affect access to its toll-free telephone
services, such as natural disasters and the late passage of Congressional legislation. For
example, for the 2006 Filing Season, the IRS planned for more services on the toll-free telephone
lines and dedicated disaster relief applications to help reduce any potential impact of callers
inquiring about filing extensions related to Hurricanes Katrina and Rita. For the 2007 Filing
Season, the IRS planned for additional calls to assistors and the automated lines in anticipation of
questions about the Telephone Excise Tax Refund.
However, the Economic Stimulus Act of 20086 was passed in February 2008, after the IRS had
completed planning for the 2008 Filing Season. The Act was passed to provide economic
stimulus through recovery rebates to individuals, incentives for business investment, and an
increase in conforming and Federal Housing Authority loan limits. About 130 million taxpayers
were expected to receive economic stimulus payments (also referred to as rebates) beginning in
late April and early May. During the 2008 Filing Season, the IRS averaged 69,000 rebate calls
per day, with a peak volume of 208,000 in 1 day.
This review was performed at the Joint Operations Center in Atlanta, Georgia, during the period
January through April 2008. We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective. The scope of this
audit did not include an evaluation of the quality of toll-free telephone services. The
performance data presented were provided by IRS management information systems. We did
not verify the accuracy of these data because of resource limitations. Detailed information on
our audit objective, scope, and methodology is presented in Appendix I. Major contributors to
the report are listed in Appendix II.




6
    Pub. L. No. 110-185, 122 Stat. 613.
                                                                                             Page 3
                     Increased Call Volume Associated With Economic Stimulus
                   Payments Reduced Toll-Free Access for the 2008 Filing Season




                                     Results of Review

Access to Toll-Free Telephone Lines Was Lower Than Planned Due to
the Demand From Calls Related to the Economic Stimulus Payments
Because of the additional call volume associated with the economic stimulus payments, the IRS
did not achieve its 2008 Filing Season toll-free telephone assistance performance measurement
goals. The IRS had planned to achieve an 81.1 percent Level of Service and a 270-second
Average Speed of Answer.7 Instead, it achieved a 77.4 percent Level of Service and a
347-second Average Speed of Answer, indicating that the ability of taxpayers to access the
toll-free telephone system was lower than that in prior years. Figure 3 shows the actual
performance measures for the last four filing seasons.
                    Figure 3: Comparison of the Performance Measures
                              for the 2005–2008 Filing Seasons

           Performance Measures              2005            2006            2007            2008

           Level of Service                  81.8%          82.0%           82.5%           77.4%

           Average Speed of
                                              255             213             249             347
           Answer (seconds)
           Assistor Calls
                                              15.6            14.8           14.7            16.1
           Answered (millions)
         Source: IRS Enterprise Telephone Data Warehouse.

Figure 4 shows a comparison of calls answered on a biweekly basis for the 2007 and 2008 Filing
Seasons. The volume of calls answered increased significantly for the 2008 Filing Season due to
the rebates. In addition, calls answered continued to increase after the 2008 Filing Season once
the rebates began to be issued to taxpayers.




7
 Level of Service is the IRS’ primary measure of providing taxpayers with access to an assistor. Average Speed of
Answer is the average number of seconds taxpayers waited in the queue (on hold) before receiving services.
                                                                                                          Page 4
                                                       Increased Call Volume Associated With Economic Stimulus
                                                     Payments Reduced Toll-Free Access for the 2008 Filing Season



                                           Figure 4: Calls Answered During the 2007 and 2008 Filing Seasons

                                                                      Biweekly 2007 and 2008 Filing Season Performance

                                    5.0
                                             First            Economic                 Rebate Hotline                                      End of Filing     First Rebates
                                             Automated        Stimulus                 Implemented                                         Season            Issued
                                    4.5      Rebate           Act Passed               02/19/2008                                          4/19/2008         4/22/2008
                                             Message          02/13/2008
                                             01/28/2008
                                    4.0


                                    3.5
    Calls Answered (In Millions)




                                    3.0


                                    2.5


                                    2.0


                                    1.5


                                    1.0


                                    0.5


                                     -
                                      12


                                              19


                                                      26



                                                               2


                                                                       9


                                                                              16


                                                                                      23



                                                                                              1


                                                                                                      8


                                                                                                            15


                                                                                                                     22


                                                                                                                              29



                                                                                                                                       5


                                                                                                                                              12


                                                                                                                                                      19


                                                                                                                                                              26



                                                                                                                                                                      3
                                                                                                                                                                    5/
                                                             2/


                                                                     2/




                                                                                            3/


                                                                                                    3/




                                                                                                                                     4/
                                    1/


                                            1/


                                                    1/




                                                                            2/


                                                                                    2/




                                                                                                          3/


                                                                                                                   3/


                                                                                                                            3/




                                                                                                                                            4/


                                                                                                                                                    4/


                                                                                                                                                            4/
                                                                                               Biweekly End Date

                                                   Total Calls Answered 2008 (open hours)                                 Total Calls Answered 2007 (open hours)

Source: IRS Enterprise Telephone Data Warehouse.

The Economic Stimulus Act of 2008 created greater demand for the toll-free
telephone lines, thus lowering the Level of Service
The IRS responded quickly to address taxpayers’ inquiries about the expected rebates. During
the week of January 14, 2008, it identified spikes in its individual toll-free telephone help line,
1-800-829-1040,8 also known as the 1040 line. IRS analysis of call recordings identified
taxpayers calling about the impending rebates. The IRS automated message informed taxpayers
that because no legislation had passed, details of the rebate plan had not been finalized. The IRS
took additional steps to provide customers with information on the rebates, including:
•                                  In late January 2008, the IRS began receiving higher volumes of calls from taxpayers
                                   inquiring about the rebates. To reduce the demand on assistors, the IRS implemented an


8
 The Individual Income Tax Service toll-free telephone line, 1-800-829-1040, is comprised of Tax Law and
Accounts categories.
                                                                                                                                                                   Page 5
                        Increased Call Volume Associated With Economic Stimulus
                      Payments Reduced Toll-Free Access for the 2008 Filing Season



       automated message on the 1040 line and on the 1-800-829-49339 toll-free telephone line.
       The message explained that 1) the Administration and Congress had announced an economic
       growth package that would provide a rebate to many Americans, 2) no legislation had been
       enacted and final details were not yet available, and 3) as more information became
       available, the IRS would post it on its web site, IRS.gov.
•      In mid-February, the IRS dedicated a separate telephone line to the automated message about
       the rebates. The message was updated several times to reflect when checks/payments were
       scheduled to be mailed/directly deposited and to provide more details to individuals who
       normally do not have to file tax returns.
•      In early March, the IRS temporarily transferred about 1,500 assistors from other IRS
       functions and trained all assistors to respond to taxpayers’ rebate calls, for both the English
       and Spanish toll-free telephone lines.
During planning in early Fiscal Year 2008, the IRS expected and planned for 14.1 million calls
to assistors and 17 million calls to the automated lines for the 2008 Filing Season. However, the
IRS received 16.1 million assistor calls and 19.1 million calls on the automated lines, including
1.3 million calls to toll-free telephone assistors and 4.2 million automated calls related to the
rebates.
Additionally, the IRS planned to provide approximately 16.8 million toll-free telephone assistor
services in the 2008 Filing Season. Instead, it provided 18.7 million assistor services due to
rebate call volumes. Generally, one service equates to one or more taxpayer questions answered
by one assistor. For example, one call might result in the IRS counting three services provided
for one taxpayer 1) asking a tax law question and requesting a form (two questions equals one
service by one tax law assistor), 2) asking the status of an Employer Identification Number
(one service by a business assistor), and 3) asking the status of the customer’s individual account
(one service by an individual account assistor).
Before the 2008 Filing Season, CAS function assistor services provided had remained at about
17.5 million for the last 2 filing seasons. The CAS function assistor services provided, without
the rebate calls, totaled 16.4 million for the 2008 Filing Season. As a result of the Economic
Stimulus Act of 2008, the CAS function assistor services provided increased by 6.5 percent over
those provided in the 2007 Filing Season. The IRS also estimates that assistors in other CAS
applications provided 49 percent of the rebate services. This happened when a taxpayer called a
toll-free telephone line other than the rebate line and had a rebate-related question.
More taxpayers appear to be using tax preparation software and IRS.gov to obtain tax forms and
answers to tax law questions and to prepare tax returns. For example, visits to IRS.gov increased
from 55.8 million in the 2004 Filing Season to 161 million in the 2008 Filing Season. In


9
    This is the Business and Specialty Tax Services line.
                                                                                                 Page 6
                     Increased Call Volume Associated With Economic Stimulus
                   Payments Reduced Toll-Free Access for the 2008 Filing Season



addition, during the 2008 Filing Season, taxpayers made approximately 38 million attempts to
access the Internet Refund Fact of Filing application, which allows taxpayers to check the status
of their tax refunds via IRS.gov. This represented an 18 percent increase from the 2007 Filing
Season (from 32.2 million to 38 million). Finally, taxpayers seeking rebate information visited
IRS.gov 18 million times during the 2008 Filing Season. As shown in Figure 5, the number of
toll-free telephone services provided during the 2008 Filing Season (37.8 million) was greater
than that provided during each of the last 2 filing seasons.
            Figure 5: Comparison of Toll-Free Telephone Services Provided
                     for the 2005–2008 Filing Seasons (in millions)10

      Services Provided                                2005             2006           2007           2008

      Automated Services Provided11                    19.8              18.6           17.5           19.1

      Assistor Services Provided                       18.5              17.5           17.6           18.7

      Totals                                           38.3              36.1           35.1           37.8

     Source: IRS Enterprise Telephone Data Warehouse.

The IRS implemented several strategies to advise and educate taxpayers about the economic
stimulus payments. It mailed taxpayer notices advising taxpayers of the impending payments
and produced television advertisements about the rebates. The IRS also provided payment
information on IRS.gov. Nevertheless, a great number of taxpayers called the IRS to obtain
information about the rebates. To answer these calls, the IRS trained additional telephone
assistors and provided automated tools to the assistors to enable consistent answers to taxpayers.
Because of the continuing effect that increased volumes of calls are having on the IRS fiscal year
performance goals, we will continue to monitor toll-free telephone access for the remainder of
the year and will review the IRS planning process for the 2009 Filing Season.

The IRS blocked more calls and more taxpayers abandoned calls (disconnected)
in the 2008 Filing Season
With the increase in demand from calls related to the rebates, total blocked calls increased by
67.1 percent from the 2007 Filing Season. A blocked call is one that cannot be connected
immediately because either 1) no circuit is available at the time the call arrives (i.e., the taxpayer
receives a busy signal), or 2) the system is programmed to block calls from entering the queue
when the queue backs up beyond a defined threshold (i.e., the taxpayer receives a recorded

10
   Due to changes in the methodology the IRS used to capture toll-free telephone data, the totals for previous filing
seasons in Figure 5 might not equal the totals presented in our previous reports.
11
   The Automated Services Provided category does not include the number of services provided by the Internet
Refund Fact of Filing application. Automated Services Provided equals Automated Calls Answered.
                                                                                                               Page 7
                  Increased Call Volume Associated With Economic Stimulus
                Payments Reduced Toll-Free Access for the 2008 Filing Season



announcement to call back at a later time). The IRS refers to the latter type of blocked call as a
courtesy disconnect. The IRS blocked more calls during this filing season rather than allow
more callers to wait on hold.
Primary abandons and secondary abandons increased 18.3 percent and 52.6 percent, respectively,
from those that occurred in the 2007 Filing Season. A primary abandon might occur, for
example, when a taxpayer 1) realizes he or she input the wrong telephone number and
immediately disconnects, 2) disconnects before completing an automated routing script, or
3) chooses a menu option to use an automated service but disconnects before completing the
service. A secondary abandon occurs when a caller gains access into the queue and then hangs
up while waiting in the queue for the next available assistor. Figure 6 shows a comparison of the
various components (workload indicators) the IRS uses to manage the Level of Service.
 Figure 6: Comparison of Toll-Free Telephone Level of Service Components and
             Workload Indicators for the 2005–2008 Filing Seasons

        Components                                  2005       2006       2007       2008

        Average Speed of Answer (seconds)            255       213        249        347

        Busy Signals                               299,022    217,744    287,120    349,321

        Courtesy Disconnects                       729,696   1,206,424   419,273    830,832

        Total Blocked Calls                      1,028,718   1,424,168   706,393   1,180,153

        Primary Abandons (millions)                  5.5        6.3        6.7        7.9

        Secondary Abandons (millions)                2.7        2.0        2.5        3.8
       Source: IRS Enterprise Telephone Data Warehouse.

Customer service on the Automated Collection System Program and the Automated
Underreporter Program toll-free telephone lines could be improved

Some performance measures for two of the IRS’ main compliance toll-free telephone lines–the
Automated Collection System Program and the Automated Underreporter Program–were lower
than those for the 1040 line. The Automated Collection System Program is a telephone tax
collection system designed to assist Collection function representatives in the resolution of
delinquent taxpayer accounts. The Automated Underreporter Program provides toll-free
telephone assistance for taxpayers who have questions about notices they receive as a result of
underreported income. Calls in these two Programs are answered by assistors in the Small
Business/Self-Employed (SB/SE) and W&I Divisions.


                                                                                               Page 8
                  Increased Call Volume Associated With Economic Stimulus
                Payments Reduced Toll-Free Access for the 2008 Filing Season



Compared to the 2007 Filing Season, taxpayers calling these telephone lines experienced a
longer wait time to speak with an assistor and spent more time on hold once they were connected
to an assistor. Figure 7 shows select elements of performance for these lines during the
2008 Filing Season.
        Figure 7: Performance Measures and Indicators for the Automated
        Collection System Program and Automated Underreporter Program
                 Compliance Lines During the 2008 Filing Season

                                                     Automated             Automated
                                                  Collection System       Underreporter
                                                       Program              Program
         Performance Measures and                  SB/SE       W&I       SB/SE       W&I
         Indicators                               Division   Division   Division   Division

         Level of Service Achieved                 77.0%      79.0%      71.4%      76.0%

         Level of Service Goal                     82.0%      83.0%     70-75.0%    74.0%

         Average Speed of Answer (seconds)          665        464        836        598
       Source: IRS Enterprise Telephone Data Warehouse.

The Automated Underreporter Program exceeded its Level of Service goal for the 2008 Filing
Season. However, the Automated Collection System Program did not meet its goal because
about one-half of the assistors who normally answer calls on the Automated Collection System
Program lines were diverted to answer calls about rebates during this filing season.
On the other hand, the Average Speed of Answer for the Automated Collection System Program
line was better (there was a shorter waiting time) than that for the Automated Underreporter
Program line. For example, a caller on the SB/SE Division Automated Collection System
Program line waited 665 seconds (slightly more than 11 minutes) before speaking with an
assistor. A taxpayer calling the SB/SE Division Automated Underreporter Program line waited
836 seconds (almost 14 minutes) before speaking with an assistor. These wait times are
excessive because taxpayers calling these lines are doing so because they must respond to the
IRS notices they received.
For the 2008 Filing Season, taxpayers calling the 1040 line about account and tax law questions
spent 56.1 percent of their total contact time in either a hold or wait status. The hold and wait
times to total contact time percentage shows the portion of time during the total contact with the
IRS that the caller was on hold or had to wait to speak with an assistor. Callers on the
Automated Underreporter Program line waited or were placed on hold longer than those on the
1040 line, while those on the Automated Collection System Program line waited less time than
those on the 1040 line. Figure 8 provides a comparison of the percentage of hold and wait times
for the Automated Collection System Program and the Automated Underreporter Program

                                                                                              Page 9
                      Increased Call Volume Associated With Economic Stimulus
                    Payments Reduced Toll-Free Access for the 2008 Filing Season



telephone lines to the 1040 line. We will continue to monitor these compliance lines during the
2009 Filing Season.
                       Figure 8: Comparison of the Hold and Wait Times
                       to Total Contact Time for Select Telephone Lines

                            Accounts      Automated
       Hold and Wait       and Tax Law    Collection     Percentage      Automated        Percentage
          Times            on the 1040     System           Point       Underreporter        Point
       Percentages             Line       Program12      Difference       Program         Difference

     Hold and Wait
     Times As a
                             56.1%           49.3%          -6.8%            63.5%            7.4%
     Percentage of Total
     Contact Time

Source: IRS Enterprise Telephone Data Warehouse.

Customer service for the Practitioner Priority Service toll-free telephone line was
comparable to or exceeded customer service on the CAS toll-free telephone lines
The Treasury Inspector General for Tax Administration has received complaints about the length
of time practitioners must wait to speak with an assistor and a reduction in the types of services
offered on the Practitioner Priority Service toll-free telephone line. However, the Level of
Service goal for the 2008 Filing Season was 87 percent, and assistors achieved a 90.2 percent
Level of Service. Calls were answered, on average, in 165 seconds (2.8 minutes). The Level of
Service exceeded that received by callers on the CAS toll-free telephone lines, which had a
77.4 percent Level of Service and a 347-second Average Speed of Answer.
IRS officials stated that a practitioner might be transferred to the Automated Collection System
Program toll-free telephone line when asking questions about a taxpayer’s account. More than
25,300 callers were transferred from the Practitioner Priority Service line to the Automated
Collection System Program telephone line during the 2008 Filing Season. This could be causing
practitioners to wait for longer periods of time. The types of services provided to practitioners
on the Practitioner Priority Service line have remained constant for the past 3 years.

Taxpayers Who Chose to Hear Automated Messages About the
Economic Stimulus Payments Were Not Given the Option to Return to
the Main Menu
Due to the anticipated volume of calls about the rebates, the IRS implemented a series of
automated messages to address rebate questions during the 2008 Filing Season. The initial

12
  The SB/SE Division and W&I Division Automated Collection System Program and Automated Underreporter
Program lines were combined to derive the percentages for hold and wait times.
                                                                                                Page 10
                     Increased Call Volume Associated With Economic Stimulus
                   Payments Reduced Toll-Free Access for the 2008 Filing Season



automated message provided general information about the impending passage of the Economic
Stimulus Act of 2008. In late February, the IRS installed a separate line, the Rebate Hotline,
with its own distinct number that delivered an automated rebate message. This message
provided additional details concerning eligibility requirements and what a taxpayer must do to
receive the rebate. In both instances, when the message ended, the call ended and the caller did
not have the choice to talk to an assistor or go back to the main menu.
In March, the IRS revised the Rebate Hotline message and gave callers several options to select,
depending on a caller’s filing status and eligibility. For eligibility questions, callers were
prompted to press 1. The recorded message listed the eligibility requirements. Callers were then
asked to select from another set of options: Option 1 for callers who normally are not required to
file a tax return or Option 2 for callers who had filed or who planned to file a Tax Year 2007 tax
return.
Callers who selected Option 1 heard a message about eligibility requirements and the need to fill
out a U.S. Individual Income Tax Return (Form 1040A) to receive the rebate. Because these
callers do not normally file tax returns, the IRS believed that they might have additional
questions. So the IRS provided an option for the callers to speak to an assistor by pressing 0
(zero) after the recorded message ended. For those callers who selected Option 2, the call ended
with the recording, and callers were not given the opportunity to speak to an assistor or route
back to the main menu.
Management decided not to route callers back to the
main menu because the IRS assumed that once a caller          The IRS estimated that between
                                                                58 percent and 89 percent of
heard the rebate message, the caller would require no
                                                                  taxpayers who heard the
additional information or would go to IRS.gov.               automated rebate message called
However, the IRS compared the unique numbers of              the IRS again to obtain additional
callers to the Rebate Hotline with those who called the      rebate information or to ask other
1040 line for a 35-day period. The IRS estimated that                    questions.
between 58 percent and 89 percent of callers who
heard the automated rebate message called the IRS
again to obtain additional rebate information or to ask other questions. Even with this
information, IRS officials did not amend the decision to end the calls after the recorded message
ended. This caused burden for taxpayers because they had to make another call(s) to the IRS.
In our 2007 Filing Season report on toll-free telephone access, we recommended that the IRS
route taxpayers back to the main menu when using automated messages.13 The IRS agreed with
the recommendation and indicated that it would do so, if adequate system capacity existed. After
the 2008 Filing Season, IRS officials clarified that system capacity is a function of human
assistors and technology. They agreed that while routing callers back to the main menu or to an

13
  Toll-Free Access for the 2007 Filing Season Was Effective, but the Quality and Level of Customer Service for
Spanish-Speaking Taxpayers Could Be Improved (Reference Number 2007-40-160, dated August 31, 2007).
                                                                                                         Page 11
                  Increased Call Volume Associated With Economic Stimulus
                Payments Reduced Toll-Free Access for the 2008 Filing Season



assistor would provide better customer service, doing so might affect their performance measures
and the ability of callers with account or tax law questions to reach an assistor. They did not
want to make additional changes during the 2008 Filing Season, nor did they believe that they
had enough assistors to answer the volume of calls received. However, we continue to believe
that the customer’s experience should take precedence over IRS timing issues and internal
performance measurements. Callers should be able to route back to the main menu or to an
assistor, if desired. Therefore, we are repeating the recommendation made in last year’s report.

Recommendation
Recommendation 1: The Commissioner, W&I Division, should ensure that callers have the
option of returning to the main menu when the IRS uses a recorded message to provide
information to taxpayers.
       Management’s Response: IRS management disagreed with this recommendation.
       Although the IRS previously agreed to consider our 2007 Filing Season audit
       recommendation to include an option to route back to the main menu when using
       information messages, the timing of the economic stimulus payment legislation made
       instituting this recommendation impractical. Instead, consideration was given to the
       design of the economic stimulus payment-related announcements and call routing. The
       decision not to offer customers the option of returning to the main menu after hearing an
       economic stimulus payment announcement was driven by several key factors during the
       initial deployment. These include:
           •   When information about the economic stimulus payment began to surface to the
               public and when the legislation was first passed, the IRS had limited information
               to provide callers. The IRS messaging provided all available information, and
               assistors could not provide anything more at the time.
           •   The economic stimulus payment legislation was enacted during the filing season
               peak when taxpayers were seeking assistance to prepare and file their income tax
               returns in a timely manner. A decision was made to focus resources to ensure that
               regular filing season callers were served.
           •   Call routing in the contact center environment is extremely complex. Extensive
               testing is required for any configuration change to ensure that service is not
               negatively affected for customers. Insufficient time existed to devise and
               thoroughly test the scripting required to implement the route-back option for all
               callers while ensuring that service to traditional customers would not be disrupted.
       After the economic stimulus payment legislation was passed and more information
       became available, the IRS modified its call-routing strategies to provide expanded service
       for specific economic stimulus payment customers. This included enhanced service for

                                                                                          Page 12
                  Increased Call Volume Associated With Economic Stimulus
                Payments Reduced Toll-Free Access for the 2008 Filing Season



       the Social Security Administration/Veterans Affairs community by adding a routing
       option that enabled these callers to reach an assistor. This targeted approach to service
       economic stimulus payment callers was critical to facilitating voluntary tax compliance
       and providing access for the greatest number of callers during the IRS’ busiest time of the
       year. As was the case with the economic stimulus payment, future decisions to provide a
       route-back option to customers when using informational messages will be made on a
       case-by-case basis after careful consideration of all factors unique to the situation.
       Office of Audit Comment: We again recommended that the IRS ensure that callers
       have the option of returning to the main menu when the IRS uses a recorded message to
       provide information to taxpayers. We believe that callers should be given the option to
       return to the main menu because it provides better customer service, allows callers to feel
       in control, and is common practice on customer service telephone lines. Additionally, not
       providing the option of returning to the main menu forced taxpayers to call the IRS
       again–up to 89 percent on some days. By not adjusting its telephone scripting and
       providing a route-back option, the IRS 1) forced these callers to redial the toll-free
       telephone number to obtain additional rebate information or to ask other questions and
       2) burdened these callers rather than making their experiences easier.

Service for Spanish Applications Has Improved; However, Some
Spanish-Speaking Taxpayers Referred to the English Line Had Longer
Wait Times
Accuracy rates for the Spanish Accounts and Spanish Tax Law toll-free telephone lines and the
percentage of hold and wait times to total contact time improved over those for last year. The
Average Speed of Answer decreased significantly from the comparable English applications and
from the 2007 Filing Season Spanish results. Additionally, Spanish-speaking taxpayers were
given the option to switch to the English line even though service on that line was less than that
on the Spanish line.
The Average Speed of Answer for the 2008 Filing Season Spanish applications was 219 seconds
faster than that for the comparable English applications and 272 seconds faster than that during
the 2007 Filing Season for Spanish applications. These improvements occurred because the IRS
had planned to hire 318 Spanish-speaking assistors and actually hired 338 (20 more than its
goal). This resulted in a better customer experience for Spanish-speaking taxpayers. Figure 9
shows a comparison of Average Speed of Answer and components of average handle time for
Spanish and comparable English applications for the 2008 Filing Season. Figure 10 shows a
comparison of Spanish applications for the 2007 and 2008 Filing Seasons for Average Speed of
Answer and components of average handle time.




                                                                                          Page 13
                      Increased Call Volume Associated With Economic Stimulus
                    Payments Reduced Toll-Free Access for the 2008 Filing Season



                   Figure 9: Comparison of Performance Metrics for
          Spanish and Comparable English Applications, Including the Rebates,
                              for the 2008 Filing Season

                                                  Spanish       English       Numeric          Percentage
     Performance Metrics14
                                                   2008          2008        Difference        Difference

     Average Speed of Answer (Seconds)               146          365            -219             -60.0%
     Average Hold Time (Seconds)                     249          120            129             107.5%
     Average Talk Time (Seconds)                     495          348            147              42.2%
     Average Wrap Time (After-Call Work)                91         83             8                9.6%
     (Seconds)
     Average Handle Time (Seconds)                   835          551            284              51.5%
     Source: IRS Enterprise Telephone Data Warehouse.

        Figure 10: Comparison of Performance Metrics for Spanish Applications,
              Excluding the Rebates, for the 2007 and 2008 Filing Seasons

                                                  Spanish      Spanish          Numeric          Percentage
     Performance Metrics15
                                                   2007         2008           Difference        Difference

     Average Speed of Answer (Seconds)               436          164             -272             -62.4%

     Average Hold Time (Seconds)                     220          255              35               15.9%
     Average Talk Time (Seconds)                     508          513                 5             1.0%
     Average Wrap Time (After-Call Work)                94         93               -1              -1.1%
     (Seconds)
     Average Handle Time (Seconds)                   822          861              39               4.7%
     Source: IRS Enterprise Telephone Data Warehouse.

IRS officials stated that the improvements to the Spanish applications might also be attributable
to a Spanish-to-English option placed on the Spanish lines in January 2008. Spanish-speaking
callers are informed that Spanish-speaking assistors are very busy at the moment and if they
would like to continue in English to press 1 on their telephone or continue to hold for a
Spanish-speaking assistor. During the 2008 Filing Season, about 116,700 taxpayers opted to
switch to an English-speaking assistor after listening to the automated message.


14
   The 2008 Filing Season Spanish-to-English comparisons include Applications 15 and 16, which are the rebate
applications.
15
   The Spanish-to-Spanish 2008 to 2007 comparisons exclude the Telephone Excise Tax Rebate and rebate
applications for a one-to-one basis comparison.
                                                                                                        Page 14
                    Increased Call Volume Associated With Economic Stimulus
                  Payments Reduced Toll-Free Access for the 2008 Filing Season



Because the Average Speed of Answer and average handle times on the Spanish lines had
historically been longer than those for the English lines, implementing this prompt had merit
because it could help to reduce the wait time for Spanish-speaking callers. However, because the
high volume of rebate calls decreased access to the English lines, the Spanish-to-English option
is currently no longer improving customer service for Spanish-speaking callers. The Average
Speed of Answer for the 2008 Filing Season on the English lines was 365 seconds, 219 seconds
longer than that on the Spanish lines. Therefore, advising a Spanish-speaking caller to switch to
an English-speaking assistor might have resulted in the caller waiting longer to obtain assistance.
It might also have skewed the Average Speed of Answer and Level of Service performance
measures for the Spanish lines for the better because there were fewer Spanish-speaking
taxpayers waiting in the Spanish queue to speak with an assistor.
The percentage of hold and wait times to total contact time was better for Spanish applications
than for English applications. The shorter percentage of hold and wait times to total contact for
the Spanish applications is attributable to the shorter Average Speed of Answer. Contact time
includes average talk time, average hold time, and Average Speed of Answer. Figure 11
provides a comparison of hold and wait times to total contact time for Spanish and comparable
English applications for the 2008 Filing Season.
Figure 11: Comparison of Hold and Wait Times to Total Contact Time for Spanish
        and Comparable English Applications for the 2008 Filing Season

                               Taxpayer’s Total         Taxpayer’s Total        Percentage of Hold
             2008
                              Contact Time With          Hold and Wait          and Wait Times to
          Comparison
                                   the IRS                   Time               Total Contact Time

        Spanish                       890                      395                     44.4%

        English                       833                      485                     58.2%
       Source: IRS Enterprise Telephone Data Warehouse.

The accuracy rates for Spanish Accounts and Spanish Tax Law applications were higher than the
accuracy rates for the English Accounts and Tax Law applications for the 2008 Filing Season
and better than the 2007 Filing Season results for both Spanish and English applications.
Figure 12 shows the accuracy rates for the Accounts and Tax Law Applications for the 2007 and
2008 Filing Seasons.16




16
  Unweighted accuracy rates are shown for comparison purposes because weighted accuracy rates are not available
for Spanish Accounts and Spanish Tax Law applications separately. The IRS combines the Spanish Accounts and
Spanish Tax Law applications and reports a combined weighted accuracy rate. The weighted accuracy rate for the
Spanish Accounts and Tax Law applications for January 1 through April 30, 2008, was 93.4 percent.
                                                                                                       Page 15
                  Increased Call Volume Associated With Economic Stimulus
                Payments Reduced Toll-Free Access for the 2008 Filing Season



        Figure 12: Accuracy Rates for Accounts and Tax Law Applications
           in English and Spanish for the 2007 and 2008 Filing Seasons

                                   Spanish          Spanish      English        English
         Accuracy Rates
                                   Accounts         Tax Law     Accounts        Tax Law

      2008                           94.0%              92.8%    93.7%           89.5%
      2007                           89.8%              83.3%    93.5%           89.6%
      Percentage Difference          4.2%               9.5%      0.2%           -0.1%

      Percentage Change              4.7%               11.4%     0.2%           -0.1%
     Source: IRS Enterprise Telephone Data Warehouse.

Although the accuracy rates for Spanish applications improved, other performance metrics show
that calls handled in the Spanish applications last longer than those handled in the English
applications. The IRS explained that calls to the Spanish application lines often take longer than
calls to the English application lines for a variety of reasons, such as cultural backgrounds and
dialects, multiple tax issues, and assistors educating Spanish-speaking taxpayers about the
United States tax system and how the tax laws work. Generally, Spanish-speaking taxpayers will
wait less time to speak with an assistor but will remain on the telephone for a longer period of
time to have questions answered.

Recommendation
Recommendation 2: The Commissioner, W&I Division, should ensure that the automated
messages provided on the Spanish toll-free telephone lines are monitored so that they will remain
valid and promote better customer service for Spanish-speaking taxpayers.
       Management’s Response: IRS management agreed with this recommendation. The
       IRS plans to continue to offer Spanish-speaking callers the option to route to an
       English-speaking assistor as appropriate. As trends emerge, the IRS plans to assess the
       value of offering this option and make configuration changes to provide the best possible
       customer experience. Configuration changes will be made within reasonable time
       periods based on the staff available to make these changes.




                                                                                          Page 16
                     Increased Call Volume Associated With Economic Stimulus
                   Payments Reduced Toll-Free Access for the 2008 Filing Season



                                                                                                  Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this review was to evaluate the customer service toll-free telephone
access during the 2008 Filing Season.1 To accomplish this objective, we:
I.      Evaluated the IRS’ preparation for toll-free telephone operations for the 2008 Filing
        Season.
II.     Determined whether the IRS implemented any new operational processes to improve
        taxpayer access to the toll-free telephone system for the 2008 Filing Season.
III.    Determined the process used to monitor call volumes and respond to any unanticipated
        changes in call patterns or problems taxpayers experience accessing the toll-free
        telephone lines.
IV.     Determined whether 2008 Filing Season performance measure goals and indicator targets
        for the toll-free telephone operations were achieved.
V.      Determined whether the Automated Collection System Program and Automated
        Underreporter Program compliance lines were meeting goals, particularly for wait and
        hold times.2
VI.     Determined the Level of Service and Average Speed of Answer for the Practitioner
        Priority Service telephone line and whether these performance measures are significantly
        changed from those in the prior year.3 In addition, we determined whether there has been
        a reduction in services provided for the Practitioner Priority Service line over the last
        3 fiscal years.
VII.    Followed up on the IRS’ planned corrective actions in response to recommendations
        made in prior Treasury Inspector General for Tax Administration toll-free telephone
        access reports. If we found that corrective actions were not taken, we attempted to
        determine why and the effect on toll-free telephone operations.
VIII.   Determined whether the IRS decreased taxpayer services for Fiscal Year 2008 and why.

1
  The filing season is the period from January through mid-April when most individual income tax returns are filed.
2
  The Automated Collection System Program is a telephone tax collection system designed to assist Collection
function representatives in the resolution of delinquent taxpayer accounts. The Automated Underreporter Program
provides toll-free telephone assistance for taxpayers who have questions about notices they receive as a result of
underreported income.
3
  Level of Service is the IRS’ primary measure of providing taxpayers with access to an assistor. Average Speed of
Answer is the average number of seconds taxpayers waited in the queue (on hold) before receiving services.
                                                                                                          Page 17
                 Increased Call Volume Associated With Economic Stimulus
               Payments Reduced Toll-Free Access for the 2008 Filing Season



                                                                           Appendix II

                Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Augusta R. Cook, Director
Paula W. Johnson, Audit Manager
M. Jean Bell, Lead Auditor
Jackie E. Forbus, Senior Auditor
Patricia A. Jackson, Auditor
Nelva A. Usher, Auditor




                                                                                   Page 18
                Increased Call Volume Associated With Economic Stimulus
              Payments Reduced Toll-Free Access for the 2008 Filing Season



                                                                          Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Wage and Investment Division SE:W
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Chief, Performance Improvement, Wage and Investment Division SE:W:S:PI
Director, Accounts Management, Wage and Investment Division SE:W:CAS:AM
Director, Joint Operations Center, Wage and Investment Division SE:W:CAS:JOC
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Senior Operations Advisor, Wage and Investment Division SE:W:S




                                                                                Page 19
                     Increased Call Volume Associated With Economic Stimulus
                   Payments Reduced Toll-Free Access for the 2008 Filing Season



                                                                                                Appendix IV

                                Joint Operations Center

The Joint Operations Center serves as the central control organization for all of the IRS’ toll-free
telephone call routing. It uses intelligent call management software to control and route calls to
call centers and assistors who have the skills and are available to answer the calls. In addition, it
monitors the call centers for abnormally high queue (wait) times and/or the number of assistors
who are idle or available to answer calls. When this occurs, actions are taken to modify routing
scripts and to balance workload and associated staffing.
The Joint Operations Center has the ability to trace one call from the time it is received to the
time the call is terminated but does not do so because of the large volume of calls received. The
IRS does, however, monitor key segments in the life of a call. For example, the IRS monitors
the call from the time it was answered by a screener to when it was transferred to an assistor or
from the time it was answered by an assistor to the time the taxpayer was transferred or the call
ended. The IRS believes that this provides indications of the type(s) of service the average
taxpayer receives.
Taxpayers who call the IRS can receive automated services or choose to speak to a customer
service representative (assistor). For taxpayers using a touchtone telephone, the automated
services Telephone Routing Interactive System uses recorded information and interactive
applications that provide automated tax refund status information, permit taxpayers to obtain a
payoff amount for an outstanding balance due, or enable taxpayers to set up an installment
agreement to settle a delinquent tax debt. For example, when a taxpayer calls 1-800-829-1040
with a tax law or account question, he or she is provided, in English or Spanish, four touchtone
automated main menu options with secondary options.1
        1. Requesting information on the tax rebate. This option provides information about the
           Economic Stimulus Act of 20082 tax rebate.
        2. Preparing or filing individual income tax returns or tax-related rules and regulations.
           This option provides the taxpayer with a second automated menu from which to
           choose the following options: a) ordering tax forms or publications;


1
  For the 2008 Filing Season, there was also an option for requesting information about the tax rebate (economic
stimulus payment). This option transferred the caller to a recorded message. The filing season is the period from
January through mid-April when most individual income tax returns are filed.
2
  Pub. L. No. 110-185, 122 Stat. 613. The Economic Stimulus Act of 2008 was passed to provide economic
stimulus through recovery rebates to individuals, incentives for business investment, and an increase in conforming
and Federal Housing Authority loan limits.
                                                                                                           Page 20
                      Increased Call Volume Associated With Economic Stimulus
                    Payments Reduced Toll-Free Access for the 2008 Filing Season



             b) finding addresses to mail tax returns or payments to the IRS; c) getting information
             about a refund, payment, or tax account; or d) getting help with other tax questions.
         3. Requesting information on a tax refund, payment, or personal tax account. This
            option provides the taxpayer with a second automated menu from which to choose the
            following options: a) questions concerning a tax refund; b) questions concerning a
            personal tax account; or c) questions concerning the economic stimulus payment.
         4. Using the Business and Specialty Tax line or obtaining the address for the IRS
            Internet web site.
         5. Repeating the above options.
If the caller does not select an option or is calling from a rotary telephone and is unable to select
a touchtone option, the same script is repeated providing voice response options. If the caller
selects an invalid option, he or she is transferred to an IRS employee (screener) who screens and
transfers the call to the appropriate assistor to answer the caller’s question. Assistors are trained
and certified on specific applications3 for each current filing season.




3
 The toll-free telephone assistance lines are subdivided into categories called applications, each of which is staffed
with a group of assistors who have received specialized training to help taxpayers with specific tax issues.
                                                                                                              Page 21
      Increased Call Volume Associated With Economic Stimulus
    Payments Reduced Toll-Free Access for the 2008 Filing Season



                                                     Appendix V

Management’s Response to the Draft Report




                                                           Page 22
  Increased Call Volume Associated With Economic Stimulus
Payments Reduced Toll-Free Access for the 2008 Filing Season




                                                       Page 23
  Increased Call Volume Associated With Economic Stimulus
Payments Reduced Toll-Free Access for the 2008 Filing Season




                                                       Page 24
